App. No. 18A-____

In the
Supreme Court of the United States

Jorge L. Medina,
Petitioner,
v.
William P. Barr,
Respondent.

PROOF OF SERVICE

I, Alan Gura, counsel for Petitioner and a member of the bar of this Court,
certify that on May 30, 2019, a copy of the Application to Extend Time to File A
Petition for Writ of Certiorari in the above-entitled case was sent, via Federal
Express, to to Noel Francisco, Solicitor General, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001, 202.514.2217, counsel for Respondent herein. I further
certify that all parties required to be served have been served.

/s/ Alan Gura
Alan Gura

